WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-8258

Joseph A. Daniels Virginia
(Petitioner) v. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© _ Iam filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

 

© Tama member of the Bar of the Supreme Court of the United §
signed Waiver in the Supreme Court Electronic Filing System.
your appearance first.)

 
 

es. (Filing Instructions: File a
he system will prompt you to enter

oO I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

sieaure: (Adobe kl

Date: 7/1/20 |

(Type or print) Name |Yjchelle S. Kallen

O or. © Ms. © mrs. O Miss

Firm Office of the Attorney General

Address 202 North Ninth Street

City & State Richmond, VA | Zip 23219
Phone (804) 786-7240 Email mkallen@oag.state.va.us

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Joseph A. Daniels # 1044277, Greensville Corr. Ctr, 901 Corrections Way, Jarratt, VA 23870

ce: |
